                               Office of Inspector General
                              Corporation for National and
                                       Community Service




AGREED-UPON PROCEDURES OF CORPORATION
  FOR NATIONAL AND COMMUNITY SERVICE
  GRANTS AWARDED TO POINTS OF LIGHT
             FOUNDATION

                OIG REPORT 10-19




                       Prepared by:

              Mayer Hoffman McCann P.C.
           3 Bethesda Metro Center, Suite 600
                  Bethesda, MD 20814




 This report was issued to Corporation management on August 18, 2010. Under the
 laws and regulations governing audit follow-up, the Corporation is to make final
 management decisions on the report’s findings and recommendations no later than
 February 14, 2011 and complete its corrective actions by August 17, 2011.
 Consequently, the reported findings do not necessarily represent the final resolution
 of the issues presented.
                                        NATlONAL&
                                        COMMUNITY
                                        SERVICE ru:t
                           OFFICE OF INSPECTOR GENERAL


                                         August 18. 2010


TO:           John Gomperts
              Director, AmeriCorps·State and National

              Margaret Rosenberry
              Director, Office of Grf~5 Ma~agement

FROM :        Stuart Axenfeld    ~ A~
              Assistant Inspector Genera l for Audit

SUBJECT:       OIG Report 10-19, Agreed-Upon Procedures of Corporation for National
               and Community Service Grants Awarded to Points of Light Foundation (POL)


Attached is the final report for the above-noted agreed-upon procedures . We contracted with
the independent certified public accounting firm of Mayer Hoffma n McCann (M HM) to perfonn
the procedures. The contract required MHM to conduct its review in accordance with generally
accepted govemment auditing standards.                                                 .

In connection with the contract, we reviewed MHM 's report and relate_d documentation and
inquired of its representative. Our review, as differentiated from an aud it was not intended to
enable us to express , and we do not express opinions on POL's claimed costs or compliance
with grant terms. MHM is responsible for the attached auditor's report dated August 17, 2010,
and the conclusions expressed therein. However, our review disclosed no instances where
MHM did not comply, in all material respects, with generally accepted govemment auditing
standards.

Under the Corporation's audit resolution policy, a final management decision on the findings in
this report is due by February 14, 2011 . Notice of final action is due by August 17, 2011.




                1201 New York Avenue, NW    * Suite 830 *: Washington, DC 20525
                    202-606-9390    *
                                   Hotline: 800-452-8210   *www.cncsoig.gov

                     Senior Corps   * AmeriCorps * Learn and Serve America
If you have questions pertaining to this report, please call me at (202) 606-9360, or Rick
Samson, Aud it Manager, at (202) 606-9380.

Attachment

     cc: Bernard Milano, POL, Audit Committee Chairman
         Michelle Nunn, POL CEO
         Kris Tecce POL, CFO
         William Anderson, Chief Financial Officer
         Rocco Gaudio, Deputy Chief Financial Officer, Grants & Field Financial
                        Management
         Malcolm Coles, Atlantic Area Manager
         Anthony DeColli, Senior Grants Management Specialist
         Claire Moreno, Audit Liaison, Office of Grants Management
         Bridgette Roy, Administrative Assistant
         Greg Allender, Mayer Hoffman McCann P.C., Shareholder
   AGREED-UPON PROCEDURES REVIEW OF CORPORATION FOR NATIONAL AND COMMUNITY
           SERVICE GRANTS AWARDED TO THE POINTS OF LIGHT FOUNDATION

                                   Table of Contents

                                                                              Page

Executive Summary                                                              1

Independent Accountants’ Report on Applying Agreed-Upon Procedures             5

   Results – Costs Claimed and Questioned Costs                                6

       Consolidated Schedule of Awards and Claimed Costs                       6

       Notes to Consolidated Schedule of Awards and Claimed Costs              7

       Exhibit A: Schedule of Awards and Claimed Costs                         8

       Schedule A-1 – Schedule of Awards and Claimed Costs, Points of Light    10
                      Foundation

       Schedule A-2 – Schedule of Award and Claimed Costs, Hands on Miami      14


       Schedule A-3 – Schedule of Award and Claimed Costs, Pass It Along       15

   Results – Compliance and Internal Control                                   16

Exhibit B –   Consolidated Schedule of Recommendations and Questioned          37
              Costs

Appendix A – Points of Light Foundation’s Response to Draft Report

Appendix B – Corporation for National and Community Service’s Response to
             Draft Report
                                 EXECUTIVE SUMMARY


The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Mayer Hoffman McCann P.C. (MHM) to perform agreed-upon
procedures on grant costs and compliance for Corporation-funded Federal assistance
provided to the Points of Light Foundation (POL).

Results

As a result of applying these procedures, the auditors questioned claimed Federal-share
costs of $46,295 and grantee share of $454. A questioned cost is an alleged violation of
provision of law, regulation, contract, grant, cooperative agreement, or other agreement or
document governing the expenditure of funds; or a finding that, at the time of testing, such
cost is not supported by adequate documentation. The cost results of our agreed-upon
procedures are summarized in the Consolidated Schedule of Awards and Claimed Costs.

POL claimed total Federal and match costs of $32,191,136 from December 1, 2005, through
March 31, 2009. As a result of testing a judgmentally selected sample of transactions and
other testing, we questioned the following costs.


              Description of            Federal        Grantee        Education
            Questioned Costs             Share          Share          Awards
       Inaccurate
       Accounting Records                    $8,325

       Costs Claimed Not
       Included in Budget                        748

       Costs Incurred
       Prior to Grant Period                     377

       Unallowable Costs                     22,077

       Unsupported Costs                     12,163

       Costs not in compliance
       with POL Policies                          27

       Time and Attendance:
       Unsigned Timesheets                    2,578          $454            $5,725

       Inadequate Citizenship
       Documentation                                                         4,725
       Total                               $46,295           $454          $10,450

AmeriCorps members who successfully complete their terms of service are eligible for
education awards and accrued interest awards funded by the Corporation’s National Service

                                             1
Trust. These award amounts are not funded by Corporation grants and thus are not costs
claimed by POL. As part of our agreed-upon procedures, however, the auditors determined
the effect of audit findings on eligibility for education and accrued interest awards. Using the
same criteria described above, we questioned education awards of $10,450 due to non-
compliance with program requirements.

Details related to these questioned costs and awards appear on page 5 in the Independent
Accountants’ Report on Applying Agreed-Upon Procedures.

The results of our agreed-upon procedures revealed instances of non-compliance with grant
provisions, regulations, or Office of Management and Budget (OMB) requirements, as
shown on page 16 in the Compliance and Internal Control section. Issues identified
included:

      POL’s accounting system is not adequate to account for Federal funds;

      Affiliate monitoring visits were not performed in accordance with POL policies;

      Indirect rates were not approved;

      Costs claimed were not included in original or amended grant budgets, incurred prior
       to the grant period, unallowable, unsupported, or paid in violation of POL policies;

      Late submission of Financial Status Reports (FSRs), member enrollment forms, and
       exit forms;

      Missing mid-term and end-of-term member evaluation forms;

      Members’ contracts signed after beginning of service and timesheets not signed; and

      Inadequate evidence of members’ citizenship/legal residency.


Agreed-Upon-Procedures Scope

The auditors performed the agreed-upon procedures during the period October 12, 2009,
through April 9, 2010. The agreed-upon procedures tested the allowability, allocability, and
reasonableness of financial transactions claimed by POL from December 1, 2005, through
March 31, 2009. A sample size of 495 costs transactions and 119 member files were
selected for testing. The auditors also performed tests to determine POL’s compliance with
terms and provisions of the following grants:

           Program              Award Number           Award Period    Testing Period
     AmeriCorps National        06NDHGA002            9/1/06 – 8/31/09 9/1/06 – 9/30/07
     AmeriCorps National        07NDHGA001            9/1/06 – 8/31/09 9/1/06 – 3/31/09
      Disability Outreach       05DSHDC001           10/1/05 – 9/30/08 4/1/07 - 9/30/08
    Training and Technical
          Assistance            05TAHDC003          10/1/05 – 12/31/08 4/1/07 - 9/30/08
    Training and Technical
          Assistance            05TAHGA001           10/1/05 – 9/30/08 10/1/06 - 9/30/08

                                               2
           Program             Award Number           Award Period       Testing Period
    Training and Technical
          Assistance           07TAHGA001          10/1/05 – 12/31/09 10/1/08 - 3/31/09
    Training and Technical
          Assistance           07TAHPA001           1/1/07 – 9/30/08     7/1/07 – 9/30/08
    Martin Luther King Day     06MKADC004          12/1/05 – 11/30/08   12/1/05 - 6/30/08
    Martin Luther King Day     06MKSGA001          12/1/05 – 11/30/08   10/1/06 – 6/30/07
    Martin Luther King Day     08MKHGA001          10/1/05 – 6/30/08    10/1/07 – 6/30/08
    Martin Luther King Day     09MKHDC002           9/1/08 – 8/31/11     9/1/08- 3/31/09
         VISTA State           07VSSGA009           8/3/08 – 8/31/09      8/3/08 - 2/3/09
         VISTA State           08VSNMI002           12/9/07 – 2/28/09   12/9/07 - 12/6/08
    Subtitle H Partnership
           Program             08ERSGA001           4/1/08 – 9-30-10 4/1/08 – 3/31/09
        Points of Light        08PLHDC001           10/1/07 – 9/30/08 10/1/07 – 9/30/08

The procedures performed, based on the OIG’s agreed-upon-procedures program dated
May 2009, have been included in the Independent Accountants’ Report on Applying Agreed-
Upon Procedures section of this report.


Background

The Corporation, pursuant to the authority of the National Community Service Trust Act of
1993, as amended, awards grants and cooperative agreements to National Direct grantees,
such as POL, and other entities to assist in the creation of full-time and part-time national
and community service programs.

POL was created in 1990 as a nonprofit organization in Washington, DC, to help promote
the spirit of volunteerism expounded by President George H.W. Bush. Effective August 1,
2007, POL merged with the Atlanta, GA-based Hands on Network, a national volunteer
organization. Today, the merged organization employs approximately 80 individuals.

POL awarded funds to 18, 22 and 20 subgrantees or affiliates, during program years
2006/07, 2007/08 and 2008/09, respectively. The affiliates are independent organizations
throughout the country. Funds awarded to the affiliates are allocated in the form of
contracts, not as formal subgrants. These contracts require POL to reimburse each affiliate
85 percent (15 percent is affiliate match) of the following costs incurred during the specific
program year: 1) minimum member stipend allowed, 2) related FICA, and 3) any health
insurance costs. In order to be reimbursed, the affiliates are required to submit invoices
detailing all charges and the corresponding support for each charge (i.e., payroll register,
timesheets, etc.). Each affiliate has a unique accounting code within POL’s general ledger
and the payments made to each are recorded within those accounts. This allows POL to
track payments to its affiliates. POL utilized up to 23 different affiliates to carry out its
AmeriCorps National grant during the testing period September 1, 2006, through March 31,
2009.

All affiliates maintain their own supporting documentation for claimed costs and member
files. Additionally, original member files and supporting documentation for affiliate expenses
are maintained at the POL location.


                                              3
POL received grant awards of $15,636,675 and claimed Federal costs of $10,560,525 for
the testing period of December 1, 2005, through March 31, 2009.


Exit Conference

The contents of this report were discussed with representatives from POL and the
Corporation at an exit conference held in Atlanta, Georgia on April 29, 2010. In addition, a
draft of this report was provided to officials of POL and the Corporation for their comments
on May 26, 2010.

Representatives of POL and the Corporation agreed with most of the findings. The POL
and Corporation responses to the draft are included verbatim as Appendices A and B,
respectively, and are summarized in each finding.




                                             4
              3 Bethesda Metro Center, Suite 600
              Bethesda, MD 20814-6332
              301-951-3636
              301-951-0425
              www.mhm-pc.com

Inspector General
Corporation for National and Community Service


                             INDEPENDENT ACCOUNTANTS’ REPORT ON
                              APPLYING AGREED-UPON PROCEDURES

We have performed the procedures described below for costs claimed from December 1, 2005,
through March 31, 2009. The procedures were agreed to by the OIG solely to assist it in grant-
cost and compliance testing of Corporation-funded Federal assistance provided to POL for the
awards and periods listed below. This agreed-upon procedures engagement was performed in
accordance with standards established by the American Institute of Certified Public Accountants
and generally accepted government auditing standards in the United States of America. The
sufficiency of these procedures is solely the responsibility of the OIG. Consequently, we make
no representation regarding the sufficiency of the procedures described below, either for the
purpose for which this report has been requested or any other purpose.


          Program              Award Number          Award Period    Testing Period
    AmeriCorps National        06NDHGA002           9/1/06 – 8/31/09 9/1/06 – 9/30/07
    AmeriCorps National        07NDHGA001           9/1/06 – 8/31/09 9/1/06 – 3/31/09
     Disability Outreach       05DSHDC001          10/1/05 – 9/30/08 4/1/07 - 9/30/08
   Training and Technical
         Assistance            05TAHDC003          10/1/05 – 12/31/08 4/1/07 - 9/30/08
   Training and Technical
         Assistance            05TAHGA001          10/1/05 – 9/30/08 10/1/06 - 9/30/08
   Training and Technical
         Assistance            07TAHGA001          10/1/05 – 12/31/09 10/1/08 - 3/31/09
   Training and Technical
         Assistance            07TAHPA001           1/1/07 – 9/30/08     7/1/07 – 9/30/08
   Martin Luther King Day      06MKADC004          12/1/05 – 11/30/08   12/1/05 - 6/30/08
   Martin Luther King Day      06MKSGA001          12/1/05 – 11/30/08   10/1/06 – 6/30/07
   Martin Luther King Day      08MKHGA001          10/1/05 – 6/30/08    10/1/07 – 6/30/08
   Martin Luther King Day      09MKHDC002           9/1/08 – 8/31/11     9/1/08- 3/31/09
        VISTA State            07VSSGA009           8/3/08 – 8/31/09      8/3/08 - 2/3/09
        VISTA State            08VSNMI002           12/9/07 – 2/28/09   12/9/07 - 12/6/08
   Subtitle H Partnership
          Program              08ERSGA001          4/1/08 – 9-30/10 4/1/08 – 3/31/09
       Points of Light         08PLHDC001          10/1/07 – 9/30/08 10/1/07 – 9/30/08

We were not engaged to, and did not perform an examination, the objective of which would be
the expression of an opinion on management’s assertions. Accordingly, we do not express

                                              5
such an opinion. Had we performed other procedures, other matters might have come to our
attention that would have been reported to you.

The procedures that we performed included obtaining an understanding of POL and its affiliate
site monitoring process; reconciling Federal share and match costs claimed to the accounting
system; reviewing member files to verify that the records supported member eligibility to serve
and allowability of living allowances and education awards; testing compliance with selected
grant provisions and award terms and conditions; and testing claimed grant costs and match
costs of POL to ensure: (i) proper recording of grant costs; (ii) that the required match was met;
and (iii) costs were allowable and supported in accordance with applicable regulations, OMB
circulars, grant provisions, and award terms and conditions. Grant drawdowns were compared
for consistency to the Federal share reported on POL’s Financial Status Reports.

                       Results – Costs Claimed and Questioned Costs

The results of testing costs claimed are summarized below; affiliate testing results appear in
Exhibit A on page 8.


                   Consolidated Schedule of Awards and Claimed Costs
                  Corporation for National and Community Service Award
                                Points of Light Foundation

                             December 5, 2005 to March 31, 2009
                                                                     Costs
                                                                Claimed During Questioned
   Award Number            Program                     Awarded Testing Period       Costs
  05DSHDC001    Disability Outreach                  $1,300,000       $709,628          -
                Training and Technical
  05TAHDC003    Assistance                              396,048          103,437               -
                Training and Technical
  05TAHGA001    Assistance                              565,267          553,798               -
  06MKADC004    Martin Luther King                      265,950          264,050               -
                Training and Technical
  07TAHPA001    Assistance                              763,089          743,986               -
                Training and Technical
  07TAHGA001    Assistance                              351,684           50,783             -
  06MKSGA001    Martin Luther King Day                  208,999          110,499          $748
  08MKHGA001    Martin Luther King Day                   98,500           98,500             -
  06NDHGA002    AmeriCorps National Direct            1,405,411        1,405,411            22

  07NDHGA001        AmeriCorps National Direct        2,268,367        1,377,970          3,059
  07VSSGA009        VISTA State                         112,500           18,499              -
  08VSNMI002        VISTA State                          75,000           71,264            405
                    Subtitle H Partnership
  08ERSGA001        Program                           5,200,860        2,427,700           574
  09MKHDC002        Martin Luther King                  150,000          150,000             -
  08PLHDC001        Points of Light                   2,475,000        2,475,000        41,941
                                         Totals     $15,636,675      $10,560,525      $ 46,749


                                                6
              Notes to Consolidated Schedule of Awards and Claimed Costs

Basis of Accounting

The accompanying schedules have been prepared to comply with provisions of the grant
agreements between the Corporation and POL. The information presented in the schedules
has been prepared from reports submitted by POL to the Corporation and accounting records of
POL and its affiliates. The basis of accounting used in the preparation of these reports differs
from accounting principles generally accepted in the United States of America as discussed
below.

Equipment

No equipment was purchased and claimed under Federal or grantee match costs for the period
within our scope.

Inventory

Minor materials and supplies were charged to expenses during the period of purchase.




                                               7
                                                                                   EXHIBIT A

                           Schedule of Awards and Claimed Costs
                                Points of Light Foundation
                            December 1, 2005 to March 31, 2009



                                                                  Questioned
                                   Claimed          Questioned    Education
            Awards                  Costs             Costs        Awards         Reference

06NDHGA002 – National Direct

POL – Grantee (Federal Share
only)*                              $665,446                $22                - Schedule A-1
          Subgrantees
Boston Cares                            9,819                 -              -
Chicago Cares                          30,088                 -              -
Hands On Atlanta                      180,820                 -              -
Hands on Bay Area*                     69,702                 -              -
Hands On Birmingham                     7,924                 -              -
Hands On Charlotte                     10,311                 -              -
Hands On Greater Portland              29,876                 -              -
Hands On Greenville                    12,857                 -              -
Hands On Miami*                        63,093                 -              -
Hands On Nashville                     33,767                 -              -
Make A Difference*                    117,128                 -              -
Metro Volunteers*                      37,324                 -              -
New York Cares                         29,328                 -              -
Pass It Along*                         34,115                 -         $1,000 Schedule A-3
Pittsburgh Cares                       17,980                 -              -
Volunteer Baton Rouge                   9,974                 -              -
Hands On Sacramento                    11,614                 -              -
Hands On Twin Cities                   34,245                 -              -
                       Sub-total   $1,405,411               $22         $1,000

07NDHGA001 – National Direct

POL – Grantee (Federal Share        $242,089             $1,618         $4,725 Schedule A-1
only)*
         Subgrantees
Boston Cares                          15,122                  -              -
Chicago Cares                         50,055                  -              -
Hands On Atlanta                     119,614                  -              -
Hands on Bay Area*                    37,531                  -              -
Hands On Charlotte                    22,849                  -              -
Hands On Greater Portland             58,313                  -              -
Hands On Greenville                   26,506                  -              -
           Awards                    Claimed         Questioned     Questioned    Reference

                                                8
                                       Costs          Costs    Education
                                                                 Awards
Hands On Miami*                       116,138         1,441            - Schedule A-2
Hands On Nashville                     69,077             -            -
Make A Difference*                    160,320             -            -
Metro Volunteers*                      67,064             -            -
New York Cares                         50,201             -            -
Pass It Along*                         77,640             -            -
Pittsburgh Cares                       30,501             -            -
Volunteer Baton Rouge                  10,458             -            -
Hands On Sacramento                       538             -            -
Hands On Twin Cities                   55,485             -            -
Hands on Hartford                      42,445             -            -
Jersey Cares – Newark                  51,121             -            -
Vol Center North Texas                 20,095             -            -
Vol Center Orange County               20,781             -            -
Volunteer San Diego                    34,027             -            -
                       Sub-total   $1,377,970        $3,059      $4,725

05DSHDC001                         $709,628                -          -    Schedule A-1
05TAHDC003                           103,437               -          -    Schedule A-1
05TAHGA001                           553,798               -          -    Schedule A-1
07TAHGA001                            50,783               -          -    Schedule A-1
07TAHPA001                           743,986               -          -    Schedule A-1
06MKADC004                           264,050               -          -    Schedule A-1
06MKSGA001                           110,499             748          -    Schedule A-1
08MKHGA001                            98,500               -          -    Schedule A-1
09MKHDC002                           150,000               -          -    Schedule A-1
07VSSGA009                            18,499               -      4,725    Schedule A-1
08VSNMI002                            71,264             405          -    Schedule A-1
08ERSGA001                         2,427,700             574          -    Schedule A-1
08PLHDC001                         2,475,000          41,941          -    Schedule A-1
                           Total $10,560,525        $ 46,749    $10,450

 *Selected for Application of Agreed-Upon Procedures




                                                9
                                                                 Schedule A-1

                          Schedule of Awards and Claimed Costs
                               Points of Light Foundation


                                                                 Reference
          Grant No 05DSHDC001
Awarded                                         $1,300,000        Note 1


Claimed Federal Costs for Testing Period            $709,628      Note 2



          Grant No 05TAHDC003
Awarded                                             $396,048      Note 1


Claimed Federal Costs for Testing Period            $103,437      Note 2



          Grant No 05TAHGA001
Awarded                                             $565,267      Note 1


Claimed Federal Costs for Testing Period            $553,798      Note 2



          Grant No 07TAHGA001
Awarded                                             $351,684      Note 1


Claimed Federal Costs for Testing Period             $50,783      Note 2

                                                `
          Grant No 07TAHPA001
Awarded                                             $763,089      Note 1


Claimed Federal Costs for Testing Period            $743,986      Note 2



          Grant No 06MKADC004
Awarded                                             $265,950      Note 1


Claimed Federal Costs for Testing Period            $264,050      Note 2




                                           10
                                                                      Reference
       Grant No 06MKSGA001
Awarded                                          $208,999              Note 1

Claimed Federal Costs for Testing Period         $110,499              Note 2

Questioned Costs
Unallowable Rent                                              $748     Note3

       Grant No 08MKHGA001
Awarded                                           $98,500              Note 1

Claimed Federal Costs for Testing Period          $98,500              Note 2



          Grant No 09MKHDC002
Awarded                                          $150,000              Note 1


Claimed Federal Costs for Testing Period         $150,000              Note 2



          Grant No 07VSSGA009
Awarded                                          $112,500              Note 1


Claimed Federal Costs for Testing Period          $18,499              Note 2

Questioned Education Awards
Inadequate Citizenship/Legal Residency
Documentation                                                $4,725 Note 16



          Grant No 07NDHGA001
Awarded                                         $2,268,367             Note 1

Claimed Federal Costs for Testing Period        $1,377,970             Note 2

Questioned Costs
Employee Meal                                                   $27    Note 4
Unsigned Timesheets                                          $1,591    Note 5

Total Questioned Costs                                       $1,618

Questioned Education Awards
Unsigned Timesheets                                          $4,725    Note 6



                                           11
                                                                       Reference
          Grant No 06NDHGA002
Awarded                                         $1,405,411              Note 1

Claimed Federal Costs for Testing Period        $1,405,411              Note 2

Questioned Costs
Late Fees/Finance Charges                                       $22     Note 7

          Grant No 08VSNMI002
Awarded                                           $75,000               Note 1

Claimed Federal Costs for Testing Period          $71,264               Note 2

Questioned Costs
Expenses Incurred Prior to Grant Period                        $377     Note 8
Unsupported Transactions                                         28     Note 9

Total Questioned Costs                                         $405

          Grant No 08PLHDC001
Awarded                                         $2,475,000              Note 1

Claimed Federal Costs for Testing Period        $2,475,000              Note 2


Questioned Costs
Late Fees/Finance Charges                                       $124    Note 10
Employee Entertainment                                         1,250    Note 11
Unsupported Transactions                                      12,135    Note 12
Merger Related Expenses                                       20,107    Note 17
Cost Charged to Incorrect Grant                                8,325    Note 13
Total Questioned Costs                                       $41,941

          Grant No 08ERSGA001
Awarded                                         $5,200,860              Note 1

Claimed Federal Costs for Testing Period        $2,427,700              Note 2

Questioned Costs
Employee Entertainment                                         $435 Note 14
Appreciation Gifts to Employees                                 139 Note 15
Total Questioned Costs                                         $574




                                           12
Notes

  1. The amount shown represents the total dollar amount awarded to POL by the
     Corporation for the grant identified.

  2. Claimed costs represent POL’s reported Federal expenditures for the testing period.

  3. POL charged Hands on Bay Area office rent, office supplies, phone, and internet
     expenses to the Martin Luther King Grant #06MKSGA001; however, these expenditures
     were not included in the original or amended budget (see Finding 4).

  4. POL charged $27 unallowable employee meals to the grant (see Finding 4).

  5. Living allowances and related fringe benefits for two members whose timesheets did not
     contain member’s signature and/or supervisor’s signature (see Finding 7).

  6. Education award for one member whose timesheets did not contain member’ signature
     and/or supervisor’s signature (see Finding 7).

  7. POL charged $22 in finance charges/late fees to the grant (see Finding 4).

  8. Five travel-related cost transactions were incurred prior to the grant period of the VISTA
     State grant. The grant period started on December 9, 2007, but the travel expenses
     charged to the grant were incurred prior to that date (see Finding 4).

  9. POL did not provide support for two transactions totaling $28 ($11 phone expense and
     $17 travel expense) (see Finding 4).

  10. POL charged $124 for late payments/finance charges to the grant (see Finding 4).

  11. POL charged $1,250 for staff appreciation meals to the grant (see Finding 4).

  12. POL did not provide support for transactions in the amount of $12,135 (see Finding 4).

  13. Costs of $8,325 were misposted to the general ledger on Grant No. 08PLHDC001 and
      claimed to another grant on the FSR. We were unable to verify that these costs were
      not claimed twice. (see Finding 1).

  14. POL charged the grant unallowable employee meal entertainment costs of $435 ($408
      for staff appreciation dinner and $27 staff lunch) (see Finding 4).

  15. POL charged the grant $139 for unallowable gifts to the staff that planned the 2008
      Conference (see Finding 4).

  16. Citizenship/legal residency documentation for one member did not comply with
      AmeriCorps eligibility requirements (see Finding 8).

  17. POL charged merger related expenses for $20,107 to the grant (see Finding 4).




                                             13
                                                                               Schedule A-2

                          Schedule of Award and Claimed Costs
                                Hands on Miami (HOM)


                                   Award 07NDHGA001

                                                                               Reference

Awarded                                              $179,231                   Note 1

Claimed Federal Costs                                $116,138                   Note 2

Questioned Costs
Unsigned Time Sheets                                                 $1,441     Note 3

Total Questioned Costs                                               $1,441

Notes

   1. The amount shown represents POL’s total funding to HOM.

   2. Claimed costs represent HOM’s reported Federal expenditures for the testing period.

   3. Living allowance and related fringe benefits for one member whose timesheets did not
      contain member and/or supervisor’s signatures (see Finding 7).




                                            14
                                                                                Schedule A-3

                          Schedule of Award and Claimed Costs
                                   Pass It Along (PIA)



                                    Award 06NDHGA002

                                                                                Reference

Awarded                                                $34,115                    Note 1

Claimed Federal Costs                                  $34,115                    Note 2


Questioned Education Award
Unsigned timesheets                                                    $1,000     Note 3

Total Questioned Education Award                                       $1,000


Notes

   1. The amount shown represents POL total funding to PIA.

   2. Claimed costs represent PIA ’s reported Federal expenditures for the testing period.

   3. We questioned the education award of the member whose timesheets hours were less
      than the hours reported in WBRS (see Finding 7).




                                             15
                         Results - Compliance and Internal Control

The results of our agreed-upon procedures also revealed instances of non-compliance with
grant provisions, regulations, and/or OMB requirements, as shown below:

Finding 1. Accounting system is not adequate to account for Federal funds.

Accountability

We were unable to reconcile the claimed costs in the FSRs to the grantee’s accounting records
for each grant and found that there was no clear audit trail between the FSRs and the General
Ledger (GL). Federal and match expenses are comingled in the GL and it is impossible to
separate them. As a consequence, we performed our transaction testing by selecting overall
transactions from the GL. Additionally; we discovered that not all transactions were reported in
the FSRs, as shown in the table below.


                         FSR Claimed During Testing Period             Total
      Program                                                        Expense
                        Federal        Match        Cumulative        per GL        Variance
AmeriCorps National
07NDHGA001              $1,377,970      $ 657,021      $ 2,034,990   $2,035,076           $(85)
Disability Outreach
05DSHDC001                $709,628      $488,984        $1,198,657     $665,403       $533,209
Training and
Technical Assistance
05TAHDC003                $103,437        -               $103,437       $96,997         $6,440
Training and
Technical Assistance
05TAHGA001                $553,798        -               $553,798     $683,099      $(129,301)
Training and
Technical Assistance
07TAHPA001                $743,986        -               $743,986     $678,278        $65,708
Martin Luther King
Day
06MKADC004                $264,050     $1,937,090       $2,201,140     $323,698     $1,877,442
Martin Luther King
Day
06MKSGA001                $110,499      $818,813          $929,312     $185,468       $743,844
Martin Luther King
Day
08MKHGA001                 $98,500      $265,462          $363,962     $123,727       $240,235
Vista State
08VSNMI002                 $71,264        $39,898         $111,162     $107,621          $3,541

Note: The grants listed only include those with variances between the FSR’s and the general
ledger.




                                               16
Below are the explanations provided by POL for the discrepancies:


          Program                                       Description
AmeriCorps National        Match expenses were under-reported, possibly due to a subsequent
07NDHGA001                 adjusting entry.
Disability Outreach        The difference identified was effective for the period ending March
05DSHDC001                 31, 2009. POL staff stated that an adjustment would be made in the
                           September 30, 2009, FSR.
Training and Technical
Assistance                 Amount was over-reported during the testing period; however, it was
05TAHDC003                 under-reported by $9,569 over the entire grant period.
Training and Technical     The additional funds reported in this grant correspond to the under
Assistance                 reporting on Grant No. 07TAHPA001. The two grants had similar
05TAHGA001                 purposes and outcomes.
Training and Technical
Assistance
07TAHPA001                 See above response.
Martin Luther King Day     Affiliate match and In-kind contributions were not included in the GL
06MKADC004                 because they were maintained in separate documents, such as
                           Excel spreadsheets or in the affiliates’ accounting system.
Martin Luther King Day     Affiliate match and In-kind contributions were not included in the GL
06MKSGA001                 because they were maintained in separate documents, such as
                           Excel spreadsheets or in the affiliates’ accounting system.
Martin Luther King Day     Affiliate match and In-kind contributions were not included in the GL
08MKHGA001                 because they were maintained in separate documents, such as
                           Excel spreadsheets or in the affiliates’ accounting system.
Vista State`               Match expenses were over reported, possibly due to a subsequent
08VSNMI002                 adjusting entry.


When Federal and match transactions are comingled in the general ledger, it is possible for
transactions to be misclassified and/or misreported. Grant drawdowns may not agree with
reported Federal and match costs and could be misstated. Without a clear audit trail, it is
difficult to reconcile claimed costs on the FSR to the general ledger.

An example of this weakness occurred during the reconciliation of Grant No. 05DSHDC001.
We discovered that the amount claimed in the FSR exceeded the total reflected in the general
ledger by $533,254. As a result of the AUP effort, POL stated that it will correct the discrepancy
in the September 30, 2009, FSR. The correction did not occur as a result of POL’s routine
reconciliation procedures. Not having a formal reconciliation procedure in place could lead to
excess drawdown amounts. Moreover, POL drew down $783,283 as of March 31, 2009; an
amount that exceeds the total general ledger amount, Federal and grantee share, of $665,403.

On grant No. 08ERSGA001, Federal share costs of $570,698 were incorrectly reported as
match costs. The Federal share on the FFR was not reconciled to the funds drawn down on the
grant. Misstated financial reports make it difficult for Corporation grants officers to know the
status of the grants and can contribute to misstatements on the Corporation’s financial
statements. Additionally, the Federal funds may be used in a manner inconsistent with the
grant. The error occurred on the FSR for the period ending March 31, 2009, and was corrected
September 30, 2009. Moreover, Grant No. 08PLHDC001 did not have a match requirement.


                                               17
However, POL reported $15,247,333 as match for the aforementioned grant in its financial
report.

Criteria

The 2008 AmeriCorps General Provisions, Section V.B.1. Financial Management Standards, i
General, states in part, “The Grantee must maintain financial management systems that include
standard accounting practices, sufficient internal controls, a clear audit trail and written cost
allocation procedures, as necessary.”

45 CFR § 2543, Grants and Agreements with Institutions of Higher Education, Hospitals, and
Other Non-Profit Organizations, Subpart C, Post-Award Requirements, states in part:

           .21. Standards for financial management systems.

           *      *       *

           (b) Recipients’ financial management systems shall provide for the following:

                  (1) Accurate, current and complete disclosure of the financial results of
                  each federally-sponsored project or program…

                  (2) Records that identify adequately the source and application of funds
                  for federally-sponsored activities.

Inaccurate Accounting Records

Banners and signage costs, of $16,651, for affiliates participating in the 2008 MLK Day were
claimed 50 percent to MLK Day Grant No. 06MKADC004 and 50 percent to MLK Day Grant No.
08MKHGA001. However, we discovered that $8,325 of the banners and signage cost was
recorded on the general ledger of POL Grant No 08PLHDC001. We could not determine if the
$8,325 was not claimed on Grant No. 08PLHDC001 because of inadequate records supporting
the FSR.

We questioned the $8,325 recorded under Grant No. 08PLHDC001 based upon allocability
because the costs were incurred for the MLK Day grants. POL staff stated that, although the
transaction was reported on the grant’s accounting records, it was not claimed on the grant.
However, the reconciliation of general ledger amounts to FSR amounts provided by POL did not
provide sufficient evidence demonstrating that the grant was not charged the $8,325.

Criteria

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A. General
Principals, A. Basic Considerations

           a. A cost is allocable to a particular cost objective, such as a grant, contract,
           project, service, or other activity, in accordance with the relative benefit
           received. A cost is allocable to a Federal award if it is treated consistently with
           other costs incurred for the same purpose in like circumstances and if it: (1) Is
           incurred specifically for the award.

The 2008 AmeriCorps General Provisions, Section V.A. Responsibilities under Grant
Administration, Accountability of Grantee, states in part:

                                                   18
       1. General: The grantee has full responsibility for managing all aspects of the
       grant and grant-supported activities, subject to the oversight of the Corporation.
       The grantee is accountable to the Corporation for its operation of the
       AmeriCorps Program and the use of Corporation grant funds. The grantee must
       expend grant funds in a judicious and reasonable manner, and it must record
       accurately the service activities and outcomes achieved under the grant.
       Although grantees are encouraged to seek the advice and opinion of the
       Corporation on special problems that may arise, such advice does not diminish
       the grantee’s responsibility for making sound judgments and does not mean
       that the responsibility for operating decisions has shifted to the Corporation.

Recommendations

We recommend that the Corporation:

   1a. Perform a reconciliation, for each POL grant, between the General Ledger and the PMS
        drawdowns to determine whether the grants were overdrawn and, if so, recover these
        overdrawn amounts;

   1b. Resolve the questioned costs of $8,325 and recover disallowed costs;

   1c. Ensure POL improves its accounting system to record by grant, Federal and match costs
        separately with a record-keeping system to identify the source documentation;

   1d. Ensure POL reconciles the general ledger to the FSRs and drawdowns to the Federal
        share; and

   1e. Provide guidance to POL to include all costs, Federal and match, in its FSRs.

POL’s Response

POL disagrees with the conclusion that the accounting system is not adequate to account for
Federal funds; however, POL concurs with the findings associated with that statement. POL
stated that the difficulty in reconciliation arose from several situational causes: the lack of a
clear monthly close, an office relocation, and the consolidation of the Federal funds and match
into one account. In addition, accounts for the Federal and grantee share of the match were
previously kept in one account. POL stated that it now maintains the grants individually and
maintains records of all reports submitted. POL’s responses to the specific findings and
recommendations included:

1a. POL indicated that each grant was reconciled at September 30,2009;

1b. POL disagrees with the questioned cost of $8,325. It stated that its system does not allow
for entries that do not balance;

1c. POL stated that it is implementing a new tracking system which includes separate accounts
for Federal share and match, as well as entering subgrantee match in the general ledger
system;

1d. POL stated that the general ledger, HHS and Federal Financial reports are reconciled at the
current time; and


                                               19
1e. POL stated that it hired staff with significant experience in management and oversight of
Federal funds and has conducted training for both staff and subgrantees to ensure compliance
with Federal regulations and grant provisions.

Corporation’s Response

The Corporation generally agrees with the recommendations and will determine if the
questioned $8,325 was charged twice. It does not agree with recommendation 1a as written. It
noted that the issue is related to cash management, not necessarily the reconciliation. The
Corporation also stated that it will require POL to develop written procedures for determining
HHS system draw down amounts based on actual expenditures recorded in the general ledger.

Auditor’s Comments

The Corporation should consider the actions proposed by POL and follow up to ensure that they
are implemented and effective.

In response to the Corporation’s disagreement on recommendation 1a, we believe that the
grantee should be able to reconcile the amount reported in the FFR to the general ledger for
any period reported. Timing differences between amounts drawn down and amounts reported
on the FFR were identified during the reconciliation. Amounts reported in the FFR are amounts
that have already been paid or are obligated in the general ledger to be paid from Federal funds
or claimed as match; therefore, we believe that performing a reconciliation will ensure that the
general ledger is being used appropriately.

Regarding recommendation 1b, we sustain our position as were not able to rule out the
possibility that the transaction was not charged to both grants on the FSRs.

Finding 2. Affiliate monitoring visits not performed in accordance with the POL policies.

According to POL officials, affiliate monitoring visits were conducted during all program years
audited (2006-2007, 2007-2008, 2008-2009). When we requested the monitoring reports for
three program years, POL officials did not provide evidence that site visits were conducted in
program years 2006-2007 and 2007-2008. In addition, we found that, during program year
2008-2009, POL did not perform monitoring visits to 5 of 20 affiliates: Hands on Bay Area,
Hands on Charlotte, New York Cares, Hands on Twin Cities and Volunteer San Diego.

As a result of POL not complying with its policies and procedures, affiliates that were not
monitored may not be receiving the direction to properly run their programs. POL officials
indicated that the omission of the five monitoring visits was due to travel and time limitations
during the 2008-2009 program year.


Criteria

45 C.F.R. § 2541.400(a), Monitoring and reporting program performance, states in part:

           Monitoring by grantees. Grantees are responsible for managing the day-to-day
           operations of grant and subgrant supported activities. Grantees must monitor
           grant and subgrant supported activities to assure compliance with applicable
           Federal requirements and that performance goals are being achieved. Grantee
           monitoring must cover each program, function or activity.


                                                20
POL’s Monitoring Tool, states in part:

       Site Visits: The annual site monitoring visit will have 4 main goals:
            Assess program compliance with applicable program and fiscal
               requirements
            Assess program effectiveness
            Identify and address specific technical assistance needs and
            Provide Service members an opportunity to inform programming

Recommendation

We recommend that the Corporation:

   2a. Ensure that POL enhance its policies to incorporate alternative procedures, including
       desk reviews, when staff resources adversely affect its ability to perform annual onsite
       monitoring of all affiliates..

   2b. The use of alternative procedures should be documented and approved by a senior POL
       official.

POL’s Response

POL concurs with the finding. It stated that the issue of subgrantee monitoring was identified as
an area for improvement in POL’s FY 2008 internal audit. The organization has worked over
the last two years to build an integrated system to support this work and emphasize the
importance of successful monitoring.

2a. POL stated that, in regard to National Service, the team has revamped the Host Site
Monitoring process for VISTA and National Direct. POL has specifically revised the Desk
Review Tool, On Site Review Tool, Host Site Monitoring Process Overview, and the Report
Template.

2b. POL stated that its CFO meets with all staff that oversees the subgrantees at least twice a
year. At these meetings, monitoring plans are created and evaluated, information is shared,
and progress is reviewed.

Corporation’s Response

The Corporation concurs with the finding and recommendations and will work with POL to
implement corrective action within 120 days.


Auditor’s Comments

The Corporation should consider the actions proposed by POL and follow up to ensure that they
are implemented and effective.




                                               21
Finding 3. Indirect rates not approved

On National Direct grants, the Corporation allows the recovery of administrative costs through 5
percent of Federal share and 10 percent match of total grant cost without additional
documentation. Organizations with administrative costs in excess of 15 percent are required to
obtain a Negotiated Indirect Cost Rate Agreement (NICRA).

POL had a NICRA dated May 6, 2004, for Fiscal Year (FY) October 1, 2003, through September
30, 2004, with a provisional rate of 18 percent. However, final indirect rates were not
established.

POL had a NICRA dated April 5, 2007, for FY October 1, 2004, through September 30, 2005,
with a final rate of 16.2 percent. Final indirect rates were not established for fiscal years after
September 30, 2005, whereby, POL continued to charge the provisional rate. POL annually
calculated a new billing rate from the final general ledger balances and used the new rate to
charge indirect costs to the grants. However, these new billing rates were not approved by the
Corporation. When final rates are approved, they commonly become provisional rates for the
following year. Final rates are based on actual costs for the period.

Finalizing rates and establishing new provisional rates apparently did not occur because of
confusion over how the NICRA was written. For FY 2005 the NICRA states, in part, “UNTIL
AMENDED Use same rates and conditions as those cited for fiscal year ending September 30,
2005.” While the Corporation has oversight responsibility for grantees, Health and Human
Services (HHS) is under contract with the Corporation to negotiate indirect rates. Confusion
over the wording of the NICRA has occurred with other grantees and the Corporation is working
with HHS to improve the disclosure. Additionally, we noted this issue was not identified in
POL’s OMB Circular A-133 audits performed for FY 2007 and FY 2008.

Provisional rates are estimates. When final indirect cost rates are not calculated based on
actual costs, the grants may be overcharged or undercharged.

The draft version of this report questioned indirect costs of $509,536 for charging the indirect
cost without a NICRA. On June 14, 2010 POL signed a NICRA establishing final rates for
September 30, 2006, 2007, 2008 and 2009. As a result, the questioned cost of $509,536 is
removed from this final report. However, the compliance finding for charging indirect rates
without a NICRA during the audit period remains in this final report.


 Criteria

45 CFR §2540.110 General Administrative Provisions Limitation on use of Corporation funds for
administrative costs.

            (a) (1) Not more then five percent of grant funds provided under 45 CFR
            §2516, §2517, §2519 and §2521 for any fiscal year may be used to pay for
            administrative costs as defined in §2510.20 of this chapter.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A. General
Principles, E. Negotiation and Approval of indirect Cost Rates, states in part:

       1. Definitions.

                 *       *     *

                                                22
       d. Final rate means an indirect cost rate applicable to a specified past period
       which is based on actual costs for the period. A final rate is not subject to
       adjustment.

       e. Provisional rate or billing rate means a temporary indirect cost rate applicable
       to a specified period which is used for funding, interim reimbursement, and
       reporting indirect cost on awards pending the establishment of a final rate for
       the period.

       2. Negotiation and Approval of Rates

              *       *      *

       c. Organizations that have previously established indirect cost rates must submit
       a new indirect cost proposal to the cognizant agency within six months after the
       close of each fiscal year.

Recommendations

We recommend that the Corporation:

   3a. Ensure that POL develops effective documented control procedures for the submission
       and negotiation of Indirect Cost Proposals; and

   3b. Ensure that Corporation grant officers do not allow recovery of administrative costs in
       excess of the regulatory limit without a NICRA.

POL’s Response

POL concurs with the finding and acknowledges that the provisional indirect cost rate
agreement documentation was not current. POL management stated that it was not aware of
this issue until the OIG’s agreed-upon procedures review. POL charges actual indirect costs
incurred equally to all cost centers. Therefore, since the NICRA agreements are now approved
and only actual indirect costs were charged, there should be no questioned costs. POL stated
that it has subsequently worked with the Corporation and the Department of Health and Human
Service and has received final indirect cost rates for the years in question.

3a. POL stated that as part of itsr annual year-end and audit report preparation, it has included
the completion of the annual ICR proposal as an action item.

Corporation’s Response

The Corporation anticipates allowing the costs based on discussions with the OIG. It will
require POL to develop and implement accounting procedures within 120 days to ensure timely
proposals are prepared, submitted and rates are negotiated for each year it claims indirect
costs.

Auditor’s Comments

Based on POL’s response and documentation provided in response to the draft report, we
decided not to question cost as POL was able to obtain final indirect rates for the period under
review. Therefore, we removed the original draft recommendation 3a from the final report.

                                               23
The Corporation did not respond to the recommendation that grants officers not allow recovery
of administrative cost in excess of the regulatory limit without a NICRA.


Finding 4. Costs claimed not included in original or amended budgets, incurred prior to
the grant period, unallowable, unsupported, or paid in violation of POL policies.

Costs claimed not included in original or amended budgets

Costs that were not authorized in the budget were paid with Federal funds without obtaining a
written authorization from the Corporation. POL charged Hands on Bay Area office rent, office
supplies, phone, and internet expenses to Martin Luther King Grant #06MKSGA001; however,
this expenditure of $748 was not included in the original or amended budgets.

As a result we are questioning the aforementioned amount.

Criteria

The 2008 AmeriCorps Special Provisions, Section IV. M. Budget and Programmatic Changes,
states in part:

    4. Approvals of Programmatic and Budget Changes. The Corporation’s Grants
       Officers are the only officials who have the authority to change the requirements
       of the grant. The Grants Officers will execute written amendments, and
       grantees should not assume approvals have been granted unless
       documentation from the Grants Office has been received.

Costs incurred prior to grant period

We noted expenses that were incurred prior to the grant period. Five travel-related cost
transactions were incurred prior to the grant period of the VISTA State Grant No 08VSNMI002.
The grant period started on December 9, 2007, but the travel expenses, totaling $377, were
charged to the grant between August 20, 2007, and December 5, 2007. POL incurred these
expenses without prior approval and as a result we questioned the total amount of $377. POL
did not provide an explanation for this issue.

Criteria

45 CFR Part 2541.230 Period of availability of funds, states in part:

           (a) General. Where a funding period is specified, a grantee may charge to the
           award only costs resulting from obligations of the funding period unless
           carryover of unobligated balances is permitted, in which case the carryover
           balances may be charged for costs resulting from obligations of the subsequent
           funding period.

Unallowable Costs

Two of the transactions tested under Grants Nos. 06NDHGA002 and 08PLHDC001, for $22 and
$124, respectively, were for finance charges on a POL credit card that were charged to the
grants. Additionally, POL charged $1,250 and $435 to Grants Nos. 08PLHDC001 and
08ERSGA001, respectively, for staff appreciation meals. Lastly, Grant No. 08ERSGA001 was
charged with $139 for gifts provided to the POL staff for planning the annual conference.

                                                 24
POL staff stated that it did not consider the appreciation meals unallowable because they were
related to staff development and networking. However, we consider the aforementioned costs
entertainment; therefore, we are questioning $1,685 associated with these transactions. Total
finance charges of $146 are questioned because interest charges are unallowable. The gift
cost of $139 is questioned because it is considered a donation.

POL charged five expenses incurred during its merger with the Hands on Network to grant No
08PLHDC001. The total amount for the five transactions is $20,107 ($4,852 travel expenses,
$255 advertisement expenses, and a $15,000 consulting fee). These types of transactions are
only allowed with prior approval from the awarding agency. According to POL staff, the
Corporation allowed POL to use the grant funds to cover administrative expenses, including
some expenses incurred during the merger process. As a result, POL used grant funds for
some merger-related expenses. We consider these charges unallowable organizational costs;
therefore, we questioned total costs of $20,107.

Criteria

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B. Selected
Items of Cost, states in part:

           12. Donations and Contributions. a.. Contributions or donations rendered.
           Contributions or donations, including cash, property, and services, made by the
           organization, regardless of the recipient, are unallowable.

                  *      *       *

           14. Entertainment Costs. Costs of amusement, diversion, social activities,
           ceremonials, and costs relating thereto, such as meals, lodging, rentals,
           transportation, and gratuities are unallowable.

                  *      *       *

           23. Interest. a. Cost incurred for interest on borrowed capital, temporary use of
           endowment funds, or use of the non-profit organization’s own funds, however
           represented, are unallowable.

           31. Organization Cost. Expenditures, such as incorporation fees, brokers' fees, fees to
           promoters, organizers or management consultants, attorneys, accountants, or
           investment counselors, whether or not employees of the organization, in connection with
           establishment or reorganization of an organization, are unallowable except with prior
           approval of the awarding agency.

Unsupported Costs

For the VISTA State Grant No. 08VSNMI002, POL was unable to provide support for 2 out of
the 49 transactions reviewed, which totaled $28. Additionally, supporting documentation was
not provided for 1 of the 48 transactions tested, which totaled $12,135, under Grant No.
08PLHDC001. POL could not determine why the documentation was missing. Without the
source documents we were not able to determine if the costs are allowable, reasonable and
allocable. As a result we questioned $12,163.



                                                  25
Criteria

45 CFR Part 2543.53, Retention and access requirements for records, states in part:
      (b) Financial records, supporting documents, statistical reports, and all other
      records pertinent to an award shall be retained for a period of three years from
      the date of submission of the final expenditure report.

45 CFR Part 2543.21 Standards for financial management systems, states in part;

           (b) Recipients’ financial management systems shall provide for the following:

                  *      *       *

           (7) Accounting records including cost accounting records that are supported by
           source documentation.


Costs paid in violation of POL policies

During our review of cost transactions, we noted that one transaction under Grant No.
07TAHGA001 was not in compliance with POL’s contractual policy governing a consultant. The
contract between POL and the consultant states that payment will be made to the consultant
within 30 days of invoice delivery. However, payment was made before the invoice was
received by POL. The consultant was paid in February 2009 and the invoice for the consulting
work performed was received on September 23, 2009.

Additionally, POL reimbursed employees and charged Grant No. 07NDHGA001 a meal rate that
exceeded the limit indicated in its travel policy. The policy states that employees can only
charge $24 for a single dinner meal. However, during a supervisors’ training in Atlanta, two
employees from Metro Volunteers of Denver spent and requested a reimbursement of $75.
Instead of reimbursing the allowed amount of $48, POL reimbursed the employees and charged
the entire amount of $75 to the grant.

POL officials said the payment to the consultant was based on the date of service stated in the
contract. No explanation was provided by POL for the travel expense finding.

Making payments without following internal policies could expose POL to inaccurate or invalid
payments and subsequently charge the Government for such payments. Additionally, payments
may not be paid consistent with management’s intent.

We did not question any cost associated with the consulting transaction because the costs are
valid and were invoiced after the payment. However, we questioned $27 for the meal expense
that exceeded the allowable meal rate.

Recommendations

We recommend that the Corporation:

     4a. Resolve the questioned costs, $35,392 and recover disallowed costs;

     4b. Ensure that POL provides additional training to its staff and affiliates on the cost
         principals and grant provisions, including the requirements for the budget, donations,
         entertainment, interest and organizational cost;

                                                  26
     4c. Ensure that POL maintains adequate support for the Federal and match costs; and

     4d. Provide guidance to POL regarding contractual agreements and internal policies to
         ensure that payments are made in a manner that is consistent with its policies and
         procedures.

POL’s Response

POL concurs with the finding, with the exception of the issue related to the merger costs
charged. POL stated that it was during the initial merger integration period that the majority of
the findings occurred. Having completed integration, POL now has clear policies and
procedures for the merged entity. POL stated that it has trained its staff and subgrantees on
cost principles, implemented internal controls to ensure adequate documentation to support
expenses and that it maintains contractual agreements supporting payments that were
implemented in January 2009.

Regarding the merger costs being questioned, POL stated that the costs questioned occurred
after the merger. There is one invoice from September 2007 and the majority of costs
questioned occurred in January and February 2008. The summary ledger provides the
description that the costs were merger related, however the detailed transaction information
provides details that these costs are related to organizational development and integration. The
merger between Hands On Network and Points of Light occurred in August of 2007. These
costs are related to post-merger integration and related to an all staff retreat and Board meeting.

Corporation’s Response

The Corporation agrees with the recommendations and will disallow any questioned costs that
are unsupported or for unallowable expenditures. The Corporation agrees that merger-related
costs are generally unallowable unless approved in the grant budget or by the awarding agency
in advance. The Corporation stated that they would not have approved the costs in either case
and that they are disallowed.

The Corporation will confirm implementation within 120 days of the actions proposed by POL.

Auditor’s Comments

We maintain our position regarding POL’s merger with the Hands On Network regardless of
when the cost were incurred before or after the merger date. Integration of the two
organizations, including automated systems is an organizational costs and therefore should be
disallowed.




                                                27
Finding 5. Late submission of Financial Status Reports (FSRs), member enrollment
forms, and exit forms.

POL and the affiliates tested did not consistently submit required reports and/or forms by
stipulated due dates, as shown in the table below.


              Location                            Description of Non-Compliance
POL                                         11 of 42 FSRs submitted late
Volunteer Frederick                         1 of 6 monthly expense reports submitted late
Hands on Bay Area                           6 of 21 enrollment forms submitted late
                                            7 of 21 exit form submitted late
Hands on Miami                              7 of 14 exit forms submitted late
Make a Difference                           9 of 21 enrollment forms submitted late
                                            3 of 21 exit forms submitted late
Metro Volunteers of Denver                  4 of 12 exits forms submitted late
Pass It Along                               9 out of 21 enrollment forms submitted late
                                            3 of 21 exit forms submitted late

When FSR’s are submitted late the Corporation cannot review key data in a timely manner and
may not be fully aware of the financial status of grants. Moreover, the Corporation’s own
financial information may not be current.

According to the Finance/Human Resources Manager of Volunteer Frederick, the expense
report was not submitted in a timely manner because of inadequate knowledge of the reporting
format.

The affiliates did not provide explanations for the late submission of the member-related forms.
The late submission of financial and programmatic information may preclude the grantee from
reporting accurate program and expenditure information to the Corporation. These delays can
result in the Corporation not having current information on grantees, affiliates, members, and
programs.

Criteria

AmeriCorps Special Provisions, Section IV. N. Reporting Requirements, 1. Financial Status and
Progress Reports, states in part:

           a. Financial Status Reports. The grantee shall submit semi-annual cumulative financial
              status reports, summarizing expenditures during the reporting period using eGrants.
              Financial Status Report deadlines are as follows: Reporting period covered from start
              of grant through March 31 is due by April 30.In addition, Reporting period covered
              from April 1 to September 30 is due by October 31

According to the grant agreement between POL and Volunteer Frederick, monthly expense
reports (FSRs) must be submitted by the 15th day of the following month.

The 2006 and 2007 AmeriCorps Special Provisions, Section IV. C.1. Member Enrollment,
Member Enrollment Procedures, states in part:

           d. Member Enrollment: Within 30 calendar days of the members starting
           service, the program must complete and approve the enrollment form in WBRS.

                                                  28
The 2006 and 2007 AmeriCorps Special Provisions, Section IV. N.2. Reporting Requirements,
AmeriCorps Member-Related Forms, states in part:

       c. Exit/End-of-Term-of-Service Forms. Member Exit/ End-of-Term-of-Service
       Forms must be submitted no later than 30 days after a member exits the
       program or finishes his/her term of service.

The 2007 AmeriCorps Special Provisions, Section IV.N.2. Reporting Requirements, AmeriCorps
Member-Related Forms, states in part:

       The Grantee is required to submit the following documents to the National
       Service Trust at the Corporation on forms provided by the Corporation.
       Grantees and Sub-Grantees may use WBRS to submit these forms
       electronically. Programs using WBRS must also maintain hard copies of the
       forms:

              i. Enrollment Forms. Enrollment forms must be submitted no later than
              30 days after a member is enrolled.

              *       *      *

              iii. Exit/End-of-Term-of-Service Forms. Member Exit/End-of-Term-of-
              Service Forms must be submitted no later than 30 days after a member
              exits the program or finishes his/her term of service.

The 2008 AmeriCorps Special Provisions, IV. C. Member Recruitment, Selection, and Exit,
states in part:

       1. Notice to the Corporation’s National Service Trust. The grantee must notify
       the Corporation’s National Service Trust within 30 days of a member’s selection
       for, completion of, suspension from, or release from, a term of service.
       Suspension of service is defined as an extended period during which the
       member is not serving, nor accumulating service hours or receiving AmeriCorps
       benefits.”

Recommendations

We recommend that the Corporation ensure that POL:

   5a. Strengthens its procedures and reminders to affiliates to ensure prompt and complete
       financial reporting, as well as member information; and

   5b. have affiliates submit enrollment and exit forms properly and on time.


POL’s Response

POL concurs with the finding and stated that it had previously identified the need to strengthen
procedures to improve timely submission of information. To ensure timely submission of
reports, POL has implemented an overall tracking system for all financial reports.



                                              29
5a. Within all affiliate and partnership Memoranda of Agreements, an additional organizational
compliance clause will ensure that all paperwork is submitted in a timely manner.

5b. HandsOn AmeriCorps has revised policies and provides guidance for grantees to ensure
timeliness. A Compliance Progressive Action Plan has been developed internally to monitor
non-compliant advisory communication with the host site.

Corporation’s Response

The Corporation agrees and will work with POL to ensure that it provides written guidance and
training to its staff and affiliates on all financial and member reporting requirements and
develops and implements monitoring policies and procedures to ensure compliance with
reporting due dates.

Auditor’s Comments

The Corporation should follow up with POL to ensure that corrective action is implemented and
effective.


Finding 6. Missing mid-term and end-of-term member evaluation forms.

The POL-operated program Hands on Campaign did not perform or maintain a record of mid-
term and/or end-of-term written evaluations for six out of seven members tested during Program
Year 2006-2007. POL did not provide a cause for the missing records.

Hands on Bay Area did not perform or maintain a record of end-of-term written evaluations for
one out of seven members tested during Program Year 2007-2008. Hands on Bay Area did not
provide a reason for the missing evaluation. It did provide an internship plan of responsibilities
for this member. However, this document is not sufficient as a performance evaluation.

Make a Difference did not perform or maintain a record of mid-term and/or end-of-term written
evaluations for two of seven members tested during Program Year 2006-2007. Also in Program
Year 2007-2008, it did not maintain a record of a final written evaluation for one member out of
seven members tested. According to the Director of Operations, one of these members was
terminated from the program at mid-term, the period when Make a Difference started reviewing
mid-term evaluations. The affiliate started the mid-term evaluation, but it was never completed
prior to the member leaving the program. There was no explanation provided for the other two
members with missing performance evaluation records.

Affiliates did not fully adhere to AmeriCorps Provisions governing member performance
evaluations. This could result in members receiving improper guidance in performing their
duties. Further, exit evaluations are utilized to determine if a member satisfactorily completed
the term of service and is therefore eligible to serve a second term.

Criteria

The 2006 and 2007 AmeriCorps Special Provisions, Section IV.D. Training, Supervision and
Support, states in part:

      6. Performance Reviews. The grantee must conduct and keep a record of at
         least a midterm and end-of-term written evaluation of each member's
         performance for Full and Half-Time members and an end-of-term written

                                               30
         evaluation for less than Half-time members. The evaluation should focus on
         such factors as:

           a. Whether the member has completed the required number of hours;

           b. Whether the member has satisfactorily completed assignments; and

           c. Whether the member has met other performance criteria that were
              clearly communicated at the beginning of the term of service.

Recommendations

We recommend that the Corporation ensure that POL:

    6a. Provide guidance, during its affiliate training, to ensure that required evaluations are
        completed and discussed with the member in a timely manner; and

    6b. Develop procedures to ensure that affiliates conduct and maintain records of mid-term
        and end-of-term evaluations of each member according to AmeriCorps Provisions.

POL’s Response

POL concurs with the finding. The POL National Service Department recognizes the importance
of mid-year and year-end evaluations, and has utilized Big Tent, an internet-based
communications tool, to host HandsOn AmeriCorps’ pertinent documents, host forums on
focused issue areas and solutions, and communicate important programmatic updates and
events.

6a. Member evaluations guidance to affiliates is provided using several methods, including our
electronic system to distribute information, Big Tent grantee agreements and an annual
calendar of events.

6b. Member evaluations procedures for compliance are included in a Compliance Progressive
Action Plan which has been developed internally to monitor non-compliant advisory
communication with the host site.

Corporation’s Response

The Corporation concurs with the findings and recommendations and will work with POL to
ensure that it issues guidance and trains staff on the requirements to perform and maintain
documentation of mid-term and end-of-term evaluations. Additionally, the Corporation will
ensure that POL has monitoring procedures in place to ensure that affiliates are compliant with
the requirement.

Auditor’s Comments

The Corporation should follow up with POL to ensure the corrective action is implemented.




                                              31
Finding 7.    Members’ Contract signed after beginning of service and timesheets not
signed.

Members’ contract signed after beginning service


                                      Sample Program                 Service Days
           Affiliate                   Size    Year        Member    Before Contract
           Hands on Miami               7     06/07          1               3
                                              06/07          2               2
           Metro Volunteer Denver        8    07/08          3               6
                                              07/08          4               6
                                              07/08          5               6
                                              07/08          6               6
                                        11    08/09          7              15


According to Hands on Miami’s Program Director, new employees and AmeriCorps members
often do not come prepared with all the required documents and paperwork necessary to
complete the enrollment process on their first day.

According to the Metro Volunteer of Denver’s Program Director, for Program Year 2007-2008,
enrollment packages were not available on site when the members began service. In one case
the date was inadvertently left off the contract. It was dated when the discrepancy was
discovered, 15 days after the start of service.

We did not question the service hours performed prior to the members signing their contracts.
The Corporation is providing training and other direction on the need to have signed contracts in
place before the member starts service. As a result we also did not question any education
awards.

Criteria

The 2006 and 2007 AmeriCorps Special Provisions, IV. C.1. Member Enrollment,
Member Enrollment Procedures, states in part:


            a. An individual is enrolled as an AmeriCorps member when all of the
               following have occurred:

                 i. He or she has signed a member contract;
                 ii. The program has verified the individual's eligibility to serve;
                 iii. The individual has begun a term of service; and
                 iv. The program has approved the member enrollment form in WBRS.

            b. Prior to enrolling a member in AmeriCorps, programs make
               commitments to individuals to serve. A commitment is defined as
               signing a member contract with an individual or otherwise entering into a
               legally enforceable commitment as determined by state law.



                                               32
Timesheets not signed

POL did not provide an explanation for the member unsigned the timesheets.

Member        Program    Timesheet  Hours   Unallowable         Questioned
 No.            Year       Hours   Required   Hours             Ed Award       Affiliate/ Program
  1            06/07       1862     1700       174               $4,725        POL-Campaign
  2            07/08       1741     1700       140                     0       Hands on Miami
  3            07/08        318      300         81              $1,000        Pass it Along

According to Hands on Miami’s Senior Program Director, the lack of signatures by the member
and supervisor on the timesheets was due to an oversight by the AmeriCorps Program
Manager. Other discrepancies were the result of the layoff of that manager in June 2008.

Pass it Along did not provide an explanation for the supervisor not signing the timesheet. This
member was a minimum-time member and did not receive a living allowance.

If the program does not ensure that all member timesheets are signed by a supervisor or an
individual with oversight responsibilities for the member, unallowable time could be included on
the timesheets and therefore charged to the Corporation grants.

As a result of the unsigned timesheets we questioned a total of 255 member service hours for
Hands on Campaign and Pass It Along. We also questioned living allowance of $2,630 ($2,236
Federal share and $394 grantee share) and related fringe benefits of $402 ($342 Federal Share
and $60 grantee share) for the members. Schedules A-1 and A-2 provide the break down of the
questioned costs related to each of the two entities.

We deducted the questioned hours from the members’ total hours per the timesheets. As a
result we questioned education awards totaling $5,725 because the members’ service hours did
not meet the minimum requirement for an award. The member from Hands on Miami did not
receive an education award because two education awards had been earned by that individual
for prior service periods.

Criteria

The 2006 and 2007 AmeriCorps Special Provisions Section IV. C.2. Member Enrollment,
AmeriCorps Members, states in part:

           The Grantee must keep time and attendance records on all AmeriCorps
           members in order to document their eligibility for in-service and post-service
           benefits. Time and attendance records must be signed and dated both by the
           member and by an individual with oversight responsibilities for the member.

Recommendations

We recommend that the Corporation:

     7a. Resolve the questioned costs, $3,032, questioned education awards of $5,725 and
         recover disallowed costs;

     7b. Ensure POL requires affiliates to have members sign the contract prior to starting
         service; and

                                                 33
     7c. Ensure POL trains its affiliates on member timekeeping and attendance records and
         strengthens procedures to ensure that timesheets are signed by members and
         individuals with oversight responsibilities.


POL’s Response

POL concurs with the finding and acknowledges the errors associated with member service
agreements and pre-contract service hours. It stated that POL has created policies and
procedures to ensure that no member is enrolled without a signed member contract on file. Site
supervisors are trained on these and other required enrollment procedures during the summer
institute (3 day training), summer on-boarding webinars, and direct contact with national service
staff.

However, POL does not agree with the $5,725 questioned costs as a result of the unsigned time
logs. It stated that POL has provided the auditors with information from site supervisors that
certify that members served the hours in question.

Corporation’s Response

The Corporation agrees with the finding. It will confirm POL’s implementation of its proposed
corrective action plan within 120 days. Additionally, it will disallow the $3,032 in living allowance
and $5,725 in education awards, unless appropriate support is provided.

Auditor’s Comments

The Corporation should follow up with POL to ensure corrective action is implemented.

We maintain our position regarding the questioned education award as the signed timesheets
were provided after the fact as a result of our inquiry. The original timesheets provided were not
signed or not provided.


Finding 8. Inadequate evidence of citizenship/legal residency

During the review of 11 VISTA member files, we noted one member did not have proper
documentation of U.S. citizenship or legal residency. The sponsor used a driver’s license and
Social Security card as evidence of citizenship. This type of documentation is inadequate due
to the fact that persons who are not citizens or legal permanent residents can legally obtain
Social Security cards and driver’s licenses.

Without obtaining the required documentation to adequately support U.S. citizenship or legal
residence, ineligible persons could be allowed to participate in VISTA. According to POL staff,
there is no clear guidance from the Corporation regarding VISTA member eligibility.

We questioned the member’s education award of $4,725 because documented
citizenship/residency status is required in order to qualify for awards from the National Service
Trust.




                                                 34
Criteria:

Section 146 of the National Community Service Act of 1990, as amended (NCSA), 42 U.S.C.
12602, requires that to be eligible for an education award an individual must be a citizen or
national or lawful permanent resident alien of the United States.

Section 123 of the NCSA, 42 U.S.C. 12573, also states that “[t]he Corporation may approve of
any of the following service positions as an approved national service position that includes the
national service educational award described in subtitle D of this subchapter as one of the
benefits to be provided for successful service in the position: … [a] position involving service as
a VISTA volunteer under title I of the Domestic Volunteer Service Act of 1973 (42 U.S.C. 4951
et seq.)”45 C.F.R. § 2526.10 states to be eligible to receive an education award you must be a
citizen, national, or lawful permanent resident alien of the United States.

The Code of Federal Regulations 45 C.F.R. § 2526.10(a) Eligibility for an Education Award also
requires that “[a]n individual is eligible to receive an education award from the National Service
Trust if the individual – [i]s a citizen, national, or lawful permanent resident alien of the United
States…”

Recommendation:

We recommend that the Corporation:

    8a. Resolve the questioned education award and recover disallowed costs;

    8b. Provide POL adequate guidance on VISTA member eligibility and maintenance of
        members’ records; and

    8c. Revise VISTA regulations to describe the documents necessary for establishing
        citizenship and legal permanent residency, similar to Subtitle C programs in 45 CFR §
        2522.200.

    8d. Ensure that POL provides additional training to its employees to ensure they are familiar
        with the requirements regarding documentation supporting U.S. citizenship.

POL’s Response

POL disagrees with the finding, stating that it followed the requirements for VISTA eligibility
documentation as outlined in My AmeriCorps portal, and requirements provided by its State
Office liaison. However, upon learning the documentation was considered insufficient to
support proof of eligibility; POL subsequently obtained the member’s birth certificate.

Corporation’s Response

The Corporation stated that it worked with POL and secured a birth certificate for the member
and confirmed that the member is a U.S. citizen.

Auditor’s Comments

The OIG will verify the birth certificate during the resolution process.




                                                 35
This report is intended for the information and use of the Office of Inspector General,
Corporation management, POL, and the U.S. Congress. However, this report is a matter of
public record and its distribution is not limited.




Bethesda, Maryland
August 17, 2010




                                          36
                                                                                   Exhibit B


         Consolidated Schedule of Recommendations and Questioned Costs


                               Questioned Costs                    Funds Put to
                                                                              3
Recommendation        Unallowable1         Unsupported2            Better Use
1b.                           $8,325
4a.                          $23,229             $12,163
7a.                           $3,032                                        $5,725
8a.                                                                         $4,725

Consolidated List of Recommendations




_______________

1. Questioned Cost means a cost that is unallowable because of:
    a. an alleged violation of a provision of a law, regulation, contract, grant, cooperative
        agreement, or other agreement or document governing the expenditure of funds;
    b. a finding that, at the time of the audit, such cost is not supported by adequate
        documentation; or
    c. a finding that the expenditure of funds for the intended purpose is unnecessary or
    unreasonable.

2. Unsupported Cost means a cost that is questioned because at the time of the audit, such
cost is not supported by adequate documentation. Unsupported costs are included in the
total of unallowable costs.

3. Recommendation that funds put to better use means a recommendation that funds could
be used more efficiently if management takes actions to implement and complete the
recommendation, including:
   a. reductions in outlays;
   b. deobligation of funds from programs or operations;
   c. withdrawal of interest subsidy costs on loans or loan guarantees, insurance, or
      bonds;
   d. costs not incurred by implementing recommended improvements related to the
      operations of the establishment, a contractor or grantee;
   e. avoidance of unnecessary expenditures noted in preaward reviews of contract or
      grant agreements; or
   f. any other savings which are specifically identified.




                                             37
                    APPENDIX A

Points of Light Foundation’s Response to Draft Report
Finding 1.
Accounting system is not adequate to account for Federal funds.

Points of Light Institute (POLI) disagrees with the above statement, yet concurs with the findings associated with
the above statement. In regards to the accounting system utilized, POLI has full confidence that Microsoft’s
Dynamics software is adequate to account for federal funds. The difficulty in reconciliation arose from several
situational causes: the lack of a clear monthly close, office relocation, and the consolidation of the federal funds
and match into one account. We were unable to specifically reconcile the individual FSRs to the specific date
ranges due to subsequent entries being posted to prior periods. Due to two physical relocations of the accounting
office POLI was unable to locate the original copies of the reports. In addition, previously accounts for the federal
and grantee share of the match were kept in one account. POLI now maintains the grants individually and
maintains records of all reports submitted.

Finding 1a. POLI provided a reconciliation of our general Ledger and HHS reports as outlined on page 17 of the
draft report. Each of the grants was reconciled at 9/30/09; however since it was after the grant period the auditors
did not consider the information.

Finding 1b. POLI disagrees with question cost of $8,325. Our accounting system does not allow for entries that
do     not     balance.     Because     of    this   software    limitation,  it   is   impossible    for    the
$8,325 to be entered three times. There are two entries of $8,325 totaling $16,651. In the 08PLHDC001, match
was not required. However since there was match reported, POLI provided the auditors with a copy of the entire
GL detail. It was the option of management at the time to report all allowable expenses that went to support the
organizational mission as match. The result was $17,247,333 of match expenses reported on a grant with no
match requirement. Both POLI and the auditors realized that there were duplications in the sample provided as
all federal grants detail, including MLK, VISTA and AmeriCorps, was provided twice, both in the sample for
08PLHDC001 and 08MKHGA001. At the time the duplications were recognized, the audit was significantly in
progress, and the audit firm chose not to review a new population.

Finding 1c. POLI is implementing a new tracking system which includes separate accounts for federal share and
match, as well as entering subgrantee match in the general ledger system.

Finding 1d. The general ledger, HHS and Federal Financial reports are reconciled at the current time. As stated
above, due to subsequent entries posted to prior periods, the reconciliation was not possible at the specific
periods for the FSR reports the auditors were working with.

Finding 1e. POLI has hired staff with significant experience in management and oversight of federal funds and
has conducted training for both staff and grantees to ensure compliance with Federal Regulations and grant
provisions.


Finding 2.
Affiliate monitoring visits not performed in accordance with the POL policies.

POLI concurs with the finding; the issue of subgrantee monitoring was identified as an area for improvement in
our FY 2008 internal audit. The organization has worked hard over the last two years to build an integrated
system to support this work and emphasize the importance of successful monitoring.


                          Headquarters Office • 600 Means Street NW • Suite 210 • Atlanta Georgia 30318 • T 404 979 2900
                                 DC Office • 1875 K Street • 5th Floor • Washington DC 20006 • T 202 729 8000
                                                              www.PointsofLight.org
In an effort to continue to enhance our existing monitoring efforts, and to effectively standardize tools and
practices, a Monitoring Team has been established consisting of representatives from the various grant programs
across the organization to:

       • Review existing POLI/HON policies and procedures governing monitoring practices.

       • Understand how these procedures and policies are actualized/implemented across the various grant
       programs (federal and non-federal) to identify areas of strength and weakness (in additional to those
       identified in the audit report).

       • Update and/or effectively educate and implement monitoring policies and procedures based on the audit
       findings and the review of existing implementation within individual programs to provide consistent
       implementation across the organization.

       • Create monitoring resources, tools, and best practices that are standardized and consistent across
       granting programs within POLI/HandsOn Network. These will be used as an implementation guide for
       new staff and new grant programs.

       • Create standard mechanisms within the existing systems of program and financial reviews of
       subgrantees. These new standardized mechanisms will ensure a clear and broad understanding of
       monitoring timeframes within a grant cycle, and why particular grantees are being selected for specific
       types of monitoring. The standardization will also include risk based assessments to determine monitoring
       needs, and to provide a clear monitoring plan for each grant/subgrant.

Finding 2a. In regards to National Service, the team has revamped the Host Site Monitoring process for VISTA
and National Direct. POLI has specifically revised the Desk Review Tool, On Site Review Tool, Host Site
Monitoring Process Overview, and Report Template.

Finding 2b. The CFO meets with all staff that oversee the subgrantees at least twice a year. In these meetings
monitoring plans are created and evaluated, information is shared, and progress is reviewed.

Finding 3.
Indirect rates not approved.

POLI concurs with the finding and acknowledges that the provisional indirect cost rate agreement documentation
was not current. POLI management was not aware of this issue until the OIG agreed upon procedures review.
POLI charges actual indirect costs incurred equally to all cost centers. Therefore, since the ICR agreements are
now approved and only actual indirect costs were charged, there should be no questioned costs. POLI had
provided the documentation regarding the ICR to CNCS with each new grant and renewal. The issue that the
document was out of date was never raised by CNCS. We have subsequently worked with the Corporation and
the Department of Health and Human Service, and POLI has received final indirect cost rates for the years in
question.

Finding 3a.Currently, we are in compliance and have a predetermined rate for FY2009.

Finding 3b. As part of our annual year-end and audit report preparation, we have included the completion of the
annual ICR proposal as an action item.




                                                     -2-
Finding 4.
Costs claimed not included in original or amended budgets, incurred prior to the grant period,
unallowable, unsupported, or paid in violation of POL policies.

POLI concurs with the finding. It was during the initial merger integration period that the majority of the findings
occurred. On August 1, 2007 the Points of Light Foundation and HandsOn Network (HON) merged. Post
merger, there were standard integration activities including the consolidation of legacy POLF and legacy HON
CNCS grants, finalizing policies and procedures for the newly merged organization, as well as coordination
across two locations with different IT systems. Having completed integration, POLI now has clear policies and
procedures for the merged entity.

Finding 4a.i VISTA travel reimbursement paid prior to grant period total $377. It is possible that the $377 is a
reflection of missed efforts related to the sequencing and aligning of the two VISTA grants.

Finding 4a.ii Unallowable costs. The financing charges to the grant were in error POLI acknowledges that the $26
was over the allowable reimbursement for meals and will return the funds.

Finding 4a.iii Unsupported expense. POLI was unable to provide support for transaction. We were unable to
locate the travel log for the VISTA travel reimbursement that is in question for the $28.

Finding 4a. iv. Unsupported expenses. POLI was unable to provide support for transaction at the time of audit.
Initially POLI was not able to locate the credit card for the expenses in question. We subsequently obtained a
copy of the statement and we are working with the vendors to get copies of the invoices. We anticipate with
additional time we will be able to gather supporting documentation.

Finding 4b. POLI has had training for staff and subgrantees on cost principles.

Finding 4c. POLI has implemented internal controls to ensure adequate documentation to support
expenses

Finding 4d. POLI maintains contracts and contractual agreements supporting payments that were
implemented in January 2009.

Finding 5.
Late submission of Financial Status Reports (FSRs), member enrollment forms, and exit forms.

POLI concurs with the finding and had previously identified the need to strengthen procedures to improve timely
submission of information. As a response to ensure timely submission of reports, POLI has implemented an
overall tracking system for all financial reports.

HandsOn AmeriCorps has strengthened procedural practices to ensure prompt, complete, and accurate financial
reporting and member information by establishing alerts that heighten as the deadline nears.

5a      Within all affiliate and partnership Memoranda of Agreements, an additional organizational
        compliance clause will ensure that all paperwork is submitted in a timely manner.




                                                       -3-
5b      HandsOn AmeriCorps has revised policies and provides guidance for grantees to ensure timeliness. A
        Compliance Progressive Action Plan has been developed internally to monitor non-compliant advisory
        communication with the host site.

Finding 6.
Missing mid-term and end-of-term member evaluation forms.

POLI concurs with the finding. The POLI National Service Department recognizes the importance of mid and year
end evaluations, and has utilized Big Tent, an internet-based communications tool, to host HandsOn AmeriCorps
pertinent documents, host forums on focused issue areas and solutions, and communicate important
programmatic updates and events.
The system was designed to alert programs/subgrantees on deadlines and required information.
Training is provided to new and existing host site supervisors on how to properly complete the forms. A
calendar of important due dates, including the mid-year and final member evaluation due dates, is
provided at the mandatory Site Supervisors Training. Due dates are also posted on the OnCorps
Reports member management system whereby Site Supervisors are alerted when evaluations are
missing from the member file.

6a      Member evaluations guidance to affiliates is provided using a few methods, including our electronic
        system to distribute information, Big Tent grantee agreements and an annual calendar of events.
6b      Member evaluations procedures for compliance are included in a Compliance Progressive Action Plan
        which has been developed internally to monitor non-compliant advisory communication with the host site.

Finding 7.
Members’ Contract signed after beginning of service and timesheets not signed.

POLI concurs with the finding and acknowledges the errors associated with member service agreements and pre
contract service hours. We have created policies and procedures to ensure that no member is enrolled without a
signed member contract on file. Site supervisors are trained on these and other required enrollment procedures
during our summer institute (3 day training), summer onboarding webinars, and direct contact with national
service staff.
POLI acknowledges the unsigned member timekeeping records. As a result POLI has contracted with OnCorps,
an online reporting system that brings efficiency to member timekeeping and attendance records and reporting.
The online system ensures that time logs are signed by both member and supervisor, and provides greater
opportunity for oversight at the national office. Members and supervisors are trained at the beginning of the
service year, supported during the year by trained national staff, with an OnCorps webinar series available at any
given time. We are confident with these new systems in place that errors will be minimized going forward.
However, POLI does challenge the $5,725 questioned as a result of unsigned time logs. We have provided
information from site supervisors that certify members served the hours in question.
7a       Hands On Miami - The member in question started her term off cycle and due to a language barrier took
         longer to comprehend the agreement.
         Metro Volunteers - The program did not receive the contracts prior to the members engaging in service,
         so they were signed after the members started.
         POL - Campaign- The timesheets for the member were either lost or misplaced.
         Hands On Miami - The timesheet was inadvertently not signed by the program manager.
         Pass it along - The time logs were inadvertently not signed by the AmeriCorps Supervisor at the time for
         all the projects and programs.



                                                      -4-
7b      POLI has created policies and procedures to ensure that no member is enrolled without a signed member
contract on file. Site Supervisors are trained on these and other required enrollment procedures during our
summer institute (3 day training), summer on-boarding webinars, and direct contact with national service staff.
7c      POLI has contracted with OnCorps, an online reporting system that brings efficiency to member
timekeeping and attendance records and reporting. The online system ensures that time logs are signed by both
member and supervisor and provides greater opportunity for oversight at the national office. Members and
Supervisors are trained at the beginning of the service year, supported during the year by trained national staff
with OnCorps webinar series also available at any given time. As a result, we are confident that these types of
errors will be minimized going forward. However, POLI challenges the $5,725 questioned as a result of unsigned
time logs as we have provided information from site supervisors, who were there at the time, that certify members
served those hours.

Finding 8.
Inadequate evidence of citizenship/legal residency

POLI disagrees with the finding as we followed the requirements for VISTA eligibility documentation as outlined in
My AmeriCorps portal, and requirements provided from our State Office liaison. However, upon learning the
documentation was considered insufficient to support proof of eligibility; we subsequently reached out to the
Member to collect the member’s birth certificate.

Finding 9.
Unallowable costs related to merger
POLI disagrees with the finding. The legal costs associated with the actual merger were not charged to CNCS.
The costs that are being questioned are from significantly after the merger occurred, there is one invoice from
September 2007 and the majority of costs questioned occurred in January and February 2008. The summary
ledger provides the description that the costs were merger related, however the detailed transaction information
provides details that these costs that are being questioned are related to organizational development and
integration. The merger between HandsOn Network and Points of Light occurred in August of 2007. These costs
are related to post-merger integration and related to an all staff retreat and Board meeting.




                                                       -5-
                              APPENDIX B

Corporation for National and Community Service’s Response to Draft Report
                                     NATIONAL &
                                     COMMUNITY
                                     SERVICEtttt:
To:

.From:

Date:

Subject:          Response to OIG Draft of Agreed-Upon Procedures of Grants Awarded to the Points of
                  Light Foundation


Thank you for the opportunity to review the Office of the Inspector General draft Agreed-Upon
Procedures report of the Corporation's grants awarded to the Points of Light Foundation (POL). The
Corporation reviewed the OIG report, met with the auditors and the grantee and reviewed the POL draft
response to the audit. We are addressing aU draft fmdings at this time. In general, we agree with the OIG
recommendations and reviewed a preliminary corrective action plan from POL. The plan does not
adequately address the audit fmdings and we are working with POL to strengthen the plan before we
approve it. Once approved, we will require POL to implement it within 120 days.

Finding 1. Accounting system is not adequate to account Cor Federal fuods.

Recommendation 1: The auditors recommend that the Corporation:

I a. Perform a reconciliation, for each POL grant, between the General Ledger and the PMS drawdowns
    to determine whether the grants were over-drawn and recover these amounts;-
lb. Resolve the questioned costs of$8 ,325 and recover disallowed costs;
1c. Ensure POL improves its accounting system to record by grant, Federal and match costs separately
    with a record-keeping system to identify the source documentation;
Id. Ensure POL reconciles the general ledger to the Financial Reports and drawdowns to the Federal
    share; and
Ie. Provide guidance to POL to include all costs, Federal and match, in its Financial Reports.

      Corporation Response: The Corporation generally agrees with the recommendations and will
      determine if the questioned $8,325 was charged twice. Ifso, we will disallow duplicate costs. POL
      needs to fully use the capabilities of its accounting system to properly track and segregate its Federal
      grants and accurately reconcile and report expenses between the Federal Financial Report and its
      general ledger. Their procedures should incorporate requirements to perform a full reconciliation of
      the general ledger to the FFR and to include all costs when completing and submitting FFRs.
      However. we don 't agree with Recommendation la as written. The issue is related to cash
      management, not necessarily reconcitiation. Under Federal rules, grantees may not draw funds from
      the Payment Management System in excess of immediate needs. POL must ensure that it draws
      funds from the IlliS system only as it needs them. ID-IS monitors cash management through the
      disbursement report grantees submit quarterly to the payment system. At the end of the grant. the
      Corporation ensures that grant expenditures as reported on the FFR reconcile to amounts drawn down
      from IllIS. To ensure POL complies with cash drawdown and expenditure requirements. we will
      require the organization to develop written procedures for detennining amounts to access in the llliS
      system based on actual expenditures as recorded in the general ledger.
Finding 2. Affiliate monitoring visits Dot performed in accordance with the POL policies.

Recommendation 2: The auditors recommend that the Corporation:

2a, Ensure that POL enhance its policies to incorporate alternative procedures when staff resources
    adversely affect its ability to perform annual onsite monitoring of all affiliates. Alternative
    procedures could include desk reviews.

2b. Ensure that POL's use of alternative procedures be documented and approved by a senior POL
    official.

    Corporation Response: During a review of POL's site monitoring documentation, the auditor found
    that POL did not comply with its own site monitoring policies and procedures and failed to perform
    or fully perform site visits in three consecutive program years. The Corporation concurs with the
    finding and recommendations and will work with POL to implement them within 120 days.

Finding 3. Indirect rates not approved

Recommendation 3: The auditors recommend that the Corporation:

38. Resolve the questioned costs of$509,536, and recover disallowed costs;
3b. Ensure that POL develops effective documented control procedures for the submission and
    negotiation of Indirect Cost Proposals; and
3c. Ensure that Corporation grant officers do not a110w recovery of administrative cost in excess of the
, regulatory limit without a NlCRA ,

    Corporation Response: The auditors questioned $509,536 of Federal claimed indirect costs because
    they were based on a provisionaJ, rather than a final indirect cost rate, The Corporation agrees that
    POL should have finalized its provisional rates each year and it has now done so, On May 28, 2010,
    we received notification of the fmal rates from HHS for the periods covering the dates of the audit.
    DIG staff also received the final rate and has indicated they will confIrm the rate application when
    they issue this report as fmaL We will base our detennination of allowable amounts on the DIG
    confinnation. From discussions with OIO to date, we anticipate aHowing the costs, The Corporation
    will require POL to develop and implement accounting procedures within 120 days to ensure timely
    proposals are prepared and submitted and rates are negotiated for each year it claims indirect costs.

Finding 4. Cosu claimed oot included in Original or amended budgets, incurred prior to the grant
period, unaUowable, unsupported, or paid in violation of POL policies.

Recommendation 4: The auditors recommend that the Corporation:

4a, Resolve the questioned costs, $15,285 and recover disallowed costs;
4b, Ensure that POL provides additiona1 training to its staff and affiliates on the Cost Principles and grant
    prOVisions, including the requirements for the budget, donations, entertainment. and interest;
4c. Ensure that POL maintains adequate support for the Federal and match costs; and
4d. Provide guidance to POL regarding contractual agreements and internal policies to ensure that
    payments are made in a manner that is consistent with its policies and procedures.

    Corporation Response: The Corporation agrees with the recommendations and will disallow any
    questioned costs that are unsupported or for unallowable expenditures. To date, POL bas not
    provided supporting documentation that was unavailable during the audit that would allow the
    Corporation to approve the costs. POL has also indicated that it has trained its staff on the Cost
    Principles and implemented internal controls to ensure adequate documentation for expenditures and
    procedures for contracting and payment processing. The Corporation will confirm implementation
    within 120 days.

Finding 5. Late submissioo of Fin8ncial Status Reports (FSRs), member enrollment forms, and exit
forms.

Recommendation 5: The auditors recommend that the Corporation ensure that POL:

Sa. Strengthens its procedures and reminders to affiliates to ensure prompt and complete financial
    reporting, as well as member information; and
5b. Provides guidance, during its affiliate training. on proper and timely completion and submission of
    enrollment and exit fonns.
                                                                                                             •
    Corporation Response: In the course of the audit, auditors found numerous instances of late
    financial and member entrance and exit reporting. The Corporation agrees and will work with POL to
    ensure that it provides written guidance and training to its staff and affiliates on all frnancial and
    member reporting requirements and develops and implements monitoring policies and procedures to
    ensure affiliate compliance with reporting due dates.

Finding 6. Missing mid~term and end-of-term member evaluation forms.

Recommendation 6: The auditors recommend that the Corporation ensure that POL:

6a. Provide guidance, during its affiliate training, to ensure that required evaluations are completed and
    djscussed with the member in a timely manner; and
6b, Develop procedures to ensure that affLliates conduct and maintain records of iDid-tenn and end-of-
    term evaluations of each member according to AmeriCorps Provisions.

    Corporation Response: The Corporation concurs with the fmding and recommendations and will
    work with POL to ensure that it issues guidance and trains staff on the requirements to perfonn and
    maintain documentation of mid-term and end-of-tenn evaluations. AdditionaUy. the Corporation will
    ensure that POL has monjtoring procedures in place to ensure that affiliates are compliant with the
    requirement.

Finding 7. Members' contract signed after beginning of service and timesbeets not signed.

Recommendation 7: The auditors recommend that the Corporation:

7a. Resolve the questioned costs, $3,032, questioned education awards of$S, 72S and recover disallowed
    costs;
7b. Ensure POL requires affiliates to have members sign the contract prior to starting service; and
7c. Ensure POL trains its afftliates on member timekeeping and attendance records and strengthens
    procedures to ensure that timesheets are signed by members and individuals with oversight
    responsibilities.

    Corporation Response: The Corporation agrees that member contracts need to be signed as
    members begin their service to ensure they understand their rights and responsibilities. POL has
    indicated it created policies to ensure member contracts are signed before members begin service and
    is implementing a new on-line timekeeping system. We will confirm implementation with 120 days.
      We also agree that timesheets must be signed by both the member and supervisor and maintained to
      document completion of service hours. To date. POL has not provided sufficient documentation,
      such as conftrmation from the supervisor. to determine the hours were served. Unless we get
      appropriate support, we will disallow the $3.032 in living allowance payments and $5,725 in
      education awards.

Finding 8. laadequate evidence of citizenshipllegal residency

Recommendation 8: The auditors recommend that the Corporation:

8a. Resolve the questioned education award and recover disallowed costs;
8b. Provide POL adequate guidance on VISTA member eligibility and maintenance of members ' records;
8c. Revise VISTA regulations to describe the documents necessary for establishing Citizenship and legal
    permanent residency, similar to Subtitle C programs in 45 CFR ~ 2522.200; and
8d. Ensure that POL provides additional training to its employees to ensure they are familiar with the
    requirements regarding documentation supporting U.S. citizenship.

      Corporation Response: The VISTA citizenship documentation requirements were different from
      the AmeriCotps StatefNational requirements and POL was following the VISTA eligibility policies as
      previously directed. However, in response to another audit. the Corporation recognized that VISTA
      must follow the AmeriCorps StatelNational citizenship documentation requirements for eligibility for
      the education award. We are currently revising the requirements as recommended by DIG. We also
      worked with POL to secure a birth certificate for the member and confmned the member is a U.S.
      citizen. Therefore the education award is allowed.

Finding 9. Unallowable organization costs related to tbe merger oftbe Points of Light Foundation
and tbe Hands On Network.

Recommendation 9: The auditors recommend that the Corporation:

9a. Resolve the questioned costs, $20, I 07, and recover disallowed costs; and
9b. Ensure that Points of Light provides additional training to its staff on allowable and unallowable
    costs.

      Corporation Response: The Corporation agrees that the $20.017 claimed for expenditures related to
      the merger are genemlly unallowable unless approved in the grant budget or by the awarding agency
      in advance. We would not have approved the costs in either case and they are disallowed. We will
      ensure POL trains its staff trains its staff appropriately and also establishes better controls over budget
      amendments and cost approvals.


Cc:       William Anderson, Chief FinanciaJ Officer
          Frank Trinity, General Counsel
          John Gomperts, Director of AmeriCorps
          Bridgette Roy, Administrative Assistant, OCFO
